Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Connecticut Department of Public Safety Division of State PoliceMiddletown, Connecticut


GR-70-03-006


August 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Connecticut Department of Public Safety, Division of State Police (the State Police).  The purpose of the grants is to enhance community policing.  The State Police was awarded a total of $18,184,536 to hire 226 new police officers and redeploy the equivalent of 33.7 existing full-time police officers from administrative duties to community policing.
We reviewed the State Police compliance with seven essential grant conditions and we found weakness in only one of the seven areas we tested: reimbursement requests.  The State Police did not expend all grant funds prior to the end of the MORE 98 grant.  Because of this deficiency, we recommend COPS deobligate $14,881 of MORE 98 funds and put those funds to better use.1 
This recommendation is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar related.  See Appendix III for a breakdown of our dollar-related findings and for the definition of funds to better use.